             Follow-Up Audit of Cost Accounting Standard
              409, Depreciation of Tangible Capital Assets

                               September 2004

                     Reference Number: 2004-1C-181




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                                 September 27, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                       Daniel R. Devlin
                                   Assistant Inspector General for Audit (Headquarters Operations
                                   and Exempt Organizations Programs)

       SUBJECT:                    Follow-Up Audit of Cost Accounting Standard 409, Depreciation
                                   of Tangible Capital Assets (Audit #20041C0249)


       The Defense Contract Audit Agency (DCAA) performed a follow-up audit of the
       contractor’s corrective actions regarding Cost Accounting Standard 409, Depreciation of
       Tangible Capital Assets, noncompliances. The DCAA performed the follow-up audit to
       evaluate the corrective actions the contractor has taken in response to initial audit
       recommendations contained in a previous audit report.1
       The DCAA opined that the contractor’s corrective actions regarding the reported
       conditions are not adequate. According to the DCAA, the corrective actions planned in
       response to the previously disclosed conditions have not been implemented. This
       report is limited to the cited instances of noncompliance. Accordingly, the DCAA
       expresses no opinion whether other practices are proper, approved, or agreed for
       pricing proposals, accumulating costs, or reporting contractor performance data.
       The DCAA indicated that the contractor converted to a PeopleSoft-based accounting
       system in January 2004. The DCAA is not aware of any inadequacies concerning the
       new system’s accumulating, reporting, and billing of Government contract costs.
       Furthermore, the DCAA stated that prior to the accounting system change, the



       1
        Audit of Noncompliance With Cost Accounting Standard 409, Depreciation of Tangible Capital Assets (Reference
       Number 2004-1C-180, dated September 2004).
                                           2




contractor’s accounting system was considered adequate for Government accounting
purposes.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                     The TIGTA seal was removed due to its size.
